              U.S. Department of the Interior
                  Office of Inspector General

                                Advisory Report


          DEPARTMENT OF THE INTERIOR
       INTEGRATED CHARGE CARD PROGRAM




No. 2002-I-0011              DECEMBER 2001
                                                                           C-IN-MOA-0016-00-D
                      United States Department of the Interior

                                      Office of Inspector General
                                             Washington, D.C. 20240




                                                                              December 20, 2001

Memorandum

To:      Assistant Secretary for Policy, Management and Budget

From:    Earl E. Devaney
         Inspector General

Subject: Improvements Needed in General Controls Over the Integrated Charge Card Program,
         Department of the Interior (No. 2002-I-0011)

        This Advisory Report presents the results of our review of the Department’s Purchase
Charge Card Program. The objective of the review was to determine whether the controls
presently in place over the charge card program were sufficient to minimize the risk of improper
use of the cards. Based on our review, we concluded that significant improvements in the control
environment are needed.

        As detailed in the attached report, we made 11 recommendations to correct the identified
weaknesses. Based on the Department’s and the Bureau of Land Management’s November 26,
2001 response (see Appendix 3) to the draft report, we consider Recommendations 1, 2, 3, 4, 5, 6,
7, 8 and 10 resolved but not implemented and Recommendation 9 resolved and implemented. We
need additional information on Recommendation 11.

       Section 5(a) of the Inspector General Act (5 U.S.C. App. 3) requires the Office of
Inspector General to list this report in its semiannual report to the Congress.

         Please respond to this report by January 25, 2002. The response should provide the
information requested in Appendix 4. If you have any questions regarding this report, please call
Ms. Anne Richards, Central Region Audit Manager, at (303) 236-9243.
EXECUTIVE SUMMARY
                   This report presents the results of our review of the controls over the
                   micro-purchase portion of the Department of the Interior’s charge card
                   program. We have scheduled a separate audit in fiscal year 2002 to
                   examine the controls over the travel portion of the program.

                   The Department of the Interior does not have an adequate control
RESULTS IN BRIEF   environment for its purchase charge card program. Although
                   41 percent of the Department’s employees have purchase authority on
                   their charge cards, the Department has not established an effective
                   process to review and validate purchase transactions. Further, the
                   Department does not have sufficient processes in place to monitor and
                   adjust credit limits or to deactivate ex-employees’ cards. As a result,
                   improper transactions went undetected. The effect of the improper
                   activity includes the loss of monetary resources, the cost of
                   administering appropriate disciplinary action, and the potential loss of
                   confidence in the integrity of the operations of the Department of the
                   Interior.

                   The Department needs to ensure that:
RECOMMENDATIONS
AND M ANAGEMENT       Ø Only an appropriate number of employees have purchase
ACTIONS                 authority on their charge cards.
                      Ø Credit limits are periodically reviewed and adjusted.
                      Ø Appropriate reviewing officials are designated and trained.
                      Ø Credit card receipts and invoices are maintained.
                      Ø Receipts and invoices are reviewed for appropriateness.
                      Ø Receipts and invoices are reconciled with the monthly bank
                        statements.
                      Ø Ex-employees’ charge card accounts are deactivated.

                   The Department has agreed that more human controls are needed in its
                   charge card program to strengthen the overall control environment.

                   The Department has already taken some corrective actions including
                   issuing revised draft guidance and plans to conduct training for
                   reviewing officials. In addition, individual Bureaus have taken action
                   to address specific Bureau issues, including appropriate disciplinary
                   action, training, and steps to hold reviewing officials accountable.
                   However, much more needs to be done to restore confidence in the
                   Department’s ability to effectively control charge card activity.
                                                      CONTENTS
                                                                                                                              Page
Introduction ..............................................................................................................      1

Background ...............................................................................................................      1

Scope and Methodology ........................................................................................                  2

Results of Review ....................................................................................................          4

          Employees With Purchase Authority ................................................................                    4
          Credit Limits Too High ......................................................................................         5
          Inadequate Reviews ...........................................................................................        6
              Reviewing Officials Not Always Properly Selected or Trained ..................                                    7
              Inadequate Departmental and Bureau Guidance ..........................................                            8
              Reliance on the On-Line Information System .............................................                          8
              Holding Reviewing Officials Accountable ..................................................                        8
          Unacceptable Record Keeping ...........................................................................               9
          Ex-Employees Still Have Active Charge Card Accounts ..................................                               10

Other Matters.............................................................................................................     10

          Procedures Not Adequate to Ensure Accountable Property
             is Properly Recorded ....................................................................................         10
          Payment of Taxes ...............................................................................................     11
          Contracting Officers Making Contract Payments by Convenience Check ........                                          11
          Cash Advances From Gambling Operations ......................................................                        11
          Questionable Charges .........................................................................................       11

Recommendations ..................................................................................................             12

Department and BLM Response and OIG Reply .......................................                                              13

Appendices

          1     Details Regarding the Number of Cardholders ............................................                       14
          2     Analysis of Controls, DOI, BLM, and BOR Guidelines .............................                               15
          3     Department’s Response ................................................................................         19
          4     Status of Report Recommendations .............................................................                 30
               The Department’s Integrated Charge Card Program (the Program) 1
INTRODUCTION   was designed, in part, to streamline the small purchasing process,
               reduce the costs of processing procurement transactions, and provide
               various field offices with greater flexibility in obtaining needed
               services and supplies. In order to effect these benefits and flexibilities,
               rigid procurement controls were eased or eliminated. The
               Department’s use of the Program has expanded steadily. As of June
               30, 2001 approximately 41 percent of Department employees have
               purchase card authority and about 81 percent have travel card
               authority.

               Increased flexibilities and use of the Program without a sound control
               environment has already led to increased risk of waste and abuse. The
               risk of waste and abuse results from the combination of motive and
               opportunity. While the Department cannot eliminate the motive, it is
               responsible for instituting a strong control environment to limit the
               opportunity. We designed this review to evaluate the control
               environment for the Department’s purchase card segment of the
               Integrated Charge Card Program. We will evaluate the travel card
               segment in a separate audit.

               This report presents the results of our review. The objective of the
               review was to determine whether controls over the Program were
               sufficient to minimize the risk that the cards would be improperly used
               and we concluded that significant improvements are needed in the
               control environment.

               In May 1998, a contract was awarded to NationsBank, now the Bank
BACKGROUND     of America, to provide a charge card program to the Department. The
               Department’s charge card program is integrated, meaning that a single
               card can be used for three different lines of credit. It can be used for
               micro-purchases, travel expenses, and fueling government vehicles.

               As of July 7, 2000 the Department had issued 51,500 cards to its
               employees. Details about the number of cardholders with access to the
               purchase and travel business lines are in Appendix 1.
               Agency/Organization Program Coordinators (Program Coordinators)
               determine each business line authority by an option set. Option sets
               provide authority for, or restrict, transactions to certain categories of
               merchants.


               1The integrated charge card program includes the use of the charge card or checks
               on the charge card account for purchases of supplies and services for government
               programs, as well as the use of the charge card for travel and fleet expenses. The
               control environment for the use of checks is the same as regular card transactions.



                                                       1
               The Program includes a centralized billing process for the travel and
               purchase business lines. Purchase business line transactions are paid
               directly by the Bureaus. The Department paid $675,001,599 on
               2,057,661 purchase transactions during fiscal years 1999 and 2000.
               Included in the small purchase transactions are convenience check
               transactions, which are simply checks the cardholder may write
               directly against the agency's account. Convenience checks are used if
               a vendor does not accept the charge card. In those fiscal years
               Departmental employees wrote 87,217 checks totaling $57,870,357
               (4 percent of small purchase transactions).

               The goals of the Program are to improve mission support, streamline
               and standardize operations, increase card use by maximizing card
               acceptance for all types of transactions, reduce administrative costs,
               and move transaction processing to the private sector, in this case, the
               Bank.

               The Program also improves the efficiency of the payment process
               through the Smartpay Program. The Smartpay Program allows
               Bureaus to make payment for centrally billed charges on a daily basis.
               Approximately $400 million was paid through Smartpay in 1999, as
               part of a 40 percent annual growth rate trend in recent years. The
               Department predicts this growth rate will continue for the next 5 years,
               expecting the card to be used for over $2 billion by the year 2004.

               With the introduction of the Integrated Charge Card Program, the
               Department developed the “United States Department of the Interior
               Integrated Charge Program Guidelines.” These Guidelines were
               issued in May 2000 to establish policy and procedures for use of the
               charge card and required Bureaus to develop Bureau-specific
               procedures necessary to implement Department-wide policies. This
               Program is also subject to Federal Travel Regulations and Federal
               Acquisition Regulations.

               The Bank’s web-based desktop management tool, Electronic Account
               Government Ledger System (EAGLS), allows Department
               management to perform such functions as activating and deactivating
               business lines to employee’s cards and reallocating transactions to
               certain funding sources.

               Our review was conducted at Department headquarters, the Bureau of
SCOPE AND      Land Management (BLM), the National Park Service (NPS), the
M ETHODOLOGY   Bureau of Reclamation (BOR), and the Bureau of Indian Affairs
               (BIA). We used fiscal year 1999 and 2000 data from the EAGLS
               system to make our sample selections; however, we also tested current
               practices and transactions. We conducted detailed testing at BIA and



                                                 2
BLM. Our testing at BOR and NPS was more limited. We limited our
testing to transactions from the purchase business line by non-
warranted individuals. We judgmentally selected our samples based
on the amount of charge card activity either by the number of
transactions or the dollar volume. Once we selected individual
cardholders at a location, we expanded our work to include other
cardholders at the same location. We also used transactional profiling
such as identifying multiple purchases from the same vendor for the
same amount and paid by convenience check. Our scope was
somewhat limited because of the condition of the records. This
deficiency is addressed in the Finding Section of this report. Because
of the testing methods adopted and the fact that many records were
missing, we cannot project the results of our finding beyond the
particular functions reviewed.




                                3
                              RESULTS OF REVIEW
                          The Department and its Bureaus do not have sufficient controls in
                          place to minimize abuse of the charge card.2 Specifically,
                          management officials within the Department did not ensure that:

                              Ø Only an appropriate number of employees have purchase
                                authority on their charge cards.
                              Ø Credit limits are periodically reviewed and adjusted.
                              Ø Appropriate reviewing officials are designated and trained.
                              Ø Credit card receipts and invoices are maintained.
                              Ø Receipts and invoices are reviewed for appropriateness.
                              Ø Ex-employees’ charge card accounts are deactivated.

                          Further, the extension of purchase card authority to 41 percent of the
                          Department’s employees magnifies the weak control environment and
                          increases the chances of abuse and waste. The effect includes the
                          direct loss of limited program resources; the cost of administering
                          appropriate disciplinary action, including prosecution; and the
                          potential loss of confidence in the integrity of the Department of the
                          Interior.

                        Approximately 41 percent of the Department’s employees have
EMPLOYEES WITH          purchase authority. This represents a 47 percent increase since 1998
P URCHASE               (see Appendix 1). The Department increased the number of
AUTHORITY               cardholders to meet the Integrated Charge Card Program objectives,
                        including streamlining the small purchase process and increasing field
The Department needs to offices' ability to quickly and easily obtain services and supplies.
ensure the control
environment is adequate The Department and the Bureaus need to conduct an analysis of the
for the size of the     number of cards needed to meet these goals while maintaining
program.                necessary and adequate controls. Because there is not an adequate
                          control environment, the Department should evaluate and adjust
                          the number of employees with purchase cards to the minimum
                          needed for efficient operations. Once the control environment is
                          sound, the full benefits of the program can be obtained.



                          2 Abuse is defined as any situation where the employee received personal gain from
                          a transaction that was centrally billed and paid for by the government, thereby
                          resulting in a loss to the government.




                                                                4
                          Our analysis of credit limits concluded that the limits should be
CREDIT LIMITS             reduced. At the inception of the Program, the Department set credit
TOO HIGH                  limits using an estimate of employee spending by charge card activity
Credit limits should be   type. However, since then, the individual Bureaus have been
periodically adjusted     responsible for determining appropriate credit limits. Our review
based on purchase         found a lack of methodology for establishing credit limits for the
activity and need.        various activity types. BLM conducted an informal review of credit
                          limits based on estimations of the amount of credit necessary for the
                          cardholder. However, a formal analysis of actual activity versus the
                          credit limit has not been done. BOR has increased credit limits for the
                          travel activity, but has not analyzed the credit limits for purchase
                          activity.

                          The following chart shows total purchases for a period of 2 months for
                          101 cardholders with $103,000 in purchase authority confirming that
                          credit limits are too high.



                                                Comparison of Cardholders' Total Purchases
                                                      to Their Available Credit Limit

                                               $120,000
                                               $100,000
                             Total Purchases




                                                $80,000
                                                                                   Total Purchases
                                                $60,000
                                                                                   Credit Limit
                                                $40,000
                                                $20,000
                                                    $0
                                                          89   8   1       2   1
                                                          Number of Cardholders



                          The chart shows that the majority of the cardholders (89 percent) had
                          total purchases of $10,000 or less for the 2-month period. The gap
                          between the credit limit ($103,000) and the actual activity on the card
                          (maximum of $50,000) represents an area of vulnerability for the
                          Department to incur waste and abuse. We recommend that the
                          individual Bureaus annually conduct an analysis of the purchase
                          totals for the past year to determine a reasonable credit limit for
                          the purchase authority cardholders and adjust credit limits
                          appropriately.




                                                                       5
                        Although the Department correctly identified the transaction review as
INADEQUATE              the critical element of the control environment, we concluded that the
REVIEWS                 control was inadequately implemented. Of the 53 reviewing officials
The Department needs to whose work we evaluated, 42 (79 percent) were not performing
ensure reviewing        adequate reviews, (an adequate review is one in which the reviewing
officials adequately    official, on a monthly basis, reconciled invoices and receipts to the
review all charge card  charge card statements to ensure that all transactions were legitimate
                        and necessary).
transactions.
                          We found that reviewing officials looking at charge card transactions
                          performed these reviews on many different levels – some were done
                          inadequately or in a perfunctory matter, some were not done on a
                          regular basis, and some were not done at all. Consequently, this
                          primary control was generally ineffective, which resulted in a 13
                          percent abuse rate (in those records that were adequate for review) for
                          $19,714 in our sample. We identified several reviewing officials who
                          had signed off on monthly statements indicating completed reviews
                          where supporting documentation was not available. Furthermore, we
                          found fraudulent transactions that would have been detected if the
                          reviewing officials had conducted adequate reviews. For example, an
                          employee created false invoices to charge the government monthly
                          rent for electronic retrieval file cabinets. Electronic retrieval file
                          cabinets are generally large and extremely noticeable, yet the
                          reviewing official did not notice that the cabinets were not on the
                          office premises. The employee would then use a convenience check to
                          pay the amount identified on the invoice. The check however, was
                          going to a mortgage company to pay the individual’s monthly
                          mortgage payment. These fraudulent activities continued undetected
                          for almost two years, although for most of that period the monthly
                          statements were annotated as reviewed (authorized) by the reviewing
                          official.

                          Other schemes we detected were:

                             •   Fraudulent invoices made up to pay monthly rent.
                             •   Credit cards used to pay monthly phone bills.
                             •   Money orders from Western Union used to pay monthly
                                 expenses.
                             •   Fraudulent invoices used to convert cash advances from
                                 individually billed to centrally billed.
                             •   Using the credit card to purchase household furnishings.
                             •   Using the credit card to purchase jewelry.
                             •   Using the credit card to pay for repairs to personal vehicles.

                          We attribute the inadequate reviews to the improper selection and
                          training of reviewing officials, the lack of detailed guidance for


                                                           6
                          conducting reviews and for holding reviewing officials accountable for
                          inadequate reviews, and an over reliance on the on-line system to
                          complete reviews. Because this is the only significant control in the
                          charge card program, we believe that the importance of the
                          procedures must be made clear to the reviewing officials through
                          increased accountability.

                          Reviewing officials were not always properly selected or trained.
REVIEWING                 Neither the Department nor individual Bureaus had established
OFFICIALS NOT             adequate criteria to identify appropriate reviewing officials, or a
ALWAYS P ROPERLY          methodology to formally designate reviewing officials. Although the
SELECTED OR               Department designed and implemented training for purchase
                          cardholders, there was no training available for reviewing officials’
TRAINED                   that delineated their responsibilities.
The Department needs to
ensure appropriate        Selection and Designation of Reviewing Officials. We identified
reviewing officials are   30 cardholders (28 percent of the 107 reviewed) who either did not
properly selected and     have a reviewing official or the reviewing official was not in a position
trained.                  to determine if charges were reasonable and necessary. Some
                          reviewing officials were not even in the same program area as the
                          charge cardholders and were not in a position to know if purchases
                          were reasonable and necessary. We also found that there was
                          insufficient independence with some reviewing officials or they were
                          not of sufficient grade to challenge the cardholder if a transaction
                          explanation was necessary. Further, not all reviewing officials were
                          co-located with the charge cardholders, causing problems with access
                          to documentation to be reviewed.

                          The Department’s guidance did not specify whom reviewing officials
                          would be, and the individual Bureau’s supplemental guidance, if
                          available, was not sufficient to ensure appropriate selection of
                          reviewing officials. In short, all cardholders should have a
                          reviewing official who is sufficiently knowledgeable about
                          program needs and organizationally able to adequately perform
                          reviews of charge card transactions.

                          The Department’s guidance failed to provide for formal designation of
                          the reviewing officials. In fact, some reviewing officials were not
                          aware of their responsibilities. Because this is so critical, we briefed
                          the Department on this issue and it is revising its guidance on how to
                          select and designate reviewing officials.

                          Training of Reviewing Officials. Although the Department provided
                          training to individual charge cardholders, it did not design or provide
                          training to reviewing officials. Several reviewing officials told us that
                          they did not know how to conduct a review of charge card



                                                            7
                           transactions, including an understanding of how and why to review
                           supporting documentation. We found that many reviewing officials
                           who had not received training were not performing adequate reviews.
                           Again, based on information presented in our briefings, the
                           Department is now designing training for designated reviewing
                           officials.

                           The Department needs to issue detailed guidance regarding how these
INADEQUATE                 reviews should be conducted. The guidance generated by the
DEPARTMENTAL AND           Department was general in nature and left the responsibility to develop
BUREAU GUIDANCE            specific requirements on the performance of charge card transaction
Clarifying adequate        reviews to the various agencies. Unfortunately, three of the four
review procedures          Bureaus reviewed, with the exception of BLM, have been slow to
should strengthen          develop specific details. (See Appendix 2 for our analysis of available
departmental guidance.     guidance.) Consequently, there is insufficient detailed guidance
                           available to assist reviewing officials in conducting adequate reviews.
                           The available guidance did not contain specific language clarifying
                           that a review of charge card transactions must include reconciling the
                           receipts and invoices to the statements and analyzing the charges to
                           ensure that all transactions are legitimate.

                           The Department had not established detailed guidance describing a
RELIANCE ON THE            manual, paper review of charge card transactions because it believed
ON-LINE INFORMATION        that such detailed guidance should come from the individual Bureaus.
SYSTEM                     The Department also did not stress the manual transaction reviews
A manual review of         because it believed that the reviewing officials would be able to use
charge card receipts and   the Bank of America’s on-line information system more effectively.
invoices to monthly        Although the system is capable of recording items purchased, most
statements is necessary.   vendors (approximately 90 percent) do not provide this detailed
                           information to the Bank. Thus, the Bank’s on-line information system
                           is useful only to the point of information provided by the vendor.
                           Therefore, reviewing officials must rely on paper receipts and invoices
                           being matched to the monthly statements.

                           The integrity of the charge card program is a Department-wide
HOLDING REVIEWING          concern, not just an individual Bureau issue. Accordingly, we believe
OFFICIALS                  that the Department’s guidance must contain specific language that
ACCOUNTABLE                requires reviewing officials to reconcile necessary invoices and
Reviewing officials        receipts to the monthly statements to ensure that all transactions are for
should be held             legitimate government purposes. Based on our recommendations, the
accountable for            Department is currently revising its guidance to clarify the types and
conducting adequate        frequencies of required reviews.
timely reviews of
purchase card              The Department and the individual Bureaus have not established a
transactions.              mechanism or criteria to hold reviewing officials accountable for
                           adequate reviews. As the only significant control in the charge card



                                                             8
                         program, adequate timely reviews are essential to detect and deter
                         unauthorized purchases. Once reviewing officials have been formally
                         designated, the evaluation of their job performance should include
                         whether they completed necessary, adequate reviews of charge card
                         transactions in a timely manner. Under current guidelines, employees
                         who misuse the purchase card face disciplinary action. If a reviewing
                         official fails to detect obvious misuse because of perfunctory or
                         inadequate reviews, the reviewing official should also be subject to
                         appropriate disciplinary action.

                        We found unacceptable record keeping practices for charge card
UNACCEPTABLE            transaction receipts and invoices. Charge cardholders should maintain
RECORD K EEPING         monthly statements and all supporting receipts and invoices for a
The Department needs to minimum of three years. From our sample of 107 cardholders’
ensure cardholders      transactions, 68 cardholders (64 percent) had inadequate or missing
maintain adequate       documentation. In the worst case, a cardholder could provide only
records.                three monthly statements out of the 24 under review and could not
                        produce supporting invoices or receipts for any of the months.

                         We did note one record keeping deficiency related specifically to
                         BLM. At the BLM offices we visited, they were using a central record
                         keeping system where the individual charge cardholders turned their
                         documentation over to a designated custodian. When records were
                         retrieved from the custodian and some of the records were missing, we
                         could not establish accountability for the loss of the records. For
                         example, in one case where incomplete records were retrieved from a
                         custodian, the custodian stated that all “available” records were
                         provided to the auditors; however, the cardholder asserted that all
                         records were present when they were turned over to the custodian.

                         Departmental guidance requires cardholders to maintain their business
                         line transaction records for three years. However, the guidance does
                         not include a detailed description of an adequate record-keeping
                         system. We believe that the guidance should be enhanced by
                         providing detailed descriptions on how to maintain the records
                         and by providing additional details in the cardholder training
                         regarding records maintenance. We did find some cardholders who
                         maintained very good records. Those records generally identified
                         transactions on the monthly statement by sequentially numbering each
                         transaction. Filed with the statements were the supporting documents
                         identified by the same number assigned to the transaction. This
                         procedure allowed quick and easy review of specific transactions. We
                         believe these processes could be used to enhance the guidance and the
                         cardholder training. We briefed the Department on this issue, and
                         based on the information provided, the Department is revising its
                         guidance on record keeping for the Program.



                                                         9
                         Our analysis showed that many employees who are no longer working
EX-EMPLOYEES             for the Department of the Interior may still have active charge card
STILL HAVE ACTIVE        accounts. We analyzed the accounts of employees who left the
CHARGE CARD              Department between October 1, 1999 and July 12, 2001 using a
ACCOUNTS                 statistical sampling process. Based on our results, approximately
                         15 percent, or 1,116 ex-employees still have active charge card
The Department needs to accounts. The Program Coordinators responsible for the active
ensure ex-employees’     accounts identified in our sample could not explain why the accounts
charge card accounts are were still active. Although we did not find any activity on the
deactivated.             accounts of the ex-employees we sampled, the active accounts
                         represent a vulnerability to waste and abuse by ex-employees. This is
                         another area that is made more difficult to manage because of the
                         number of employees who have purchase card authority. If there were
                         fewer purchase cardholders, offices would be required to request a
                         replacement purchase cardholder for the departed employee, because
                         Program Coordinators would be aware of that cardholder’s departure
                         and make the necessary deactivations. However, since most offices
                         have multiple purchase cardholders, the agency Program Coordinators
                         may not always be contacted for an additional designee.

                          We provided information about ex-employees to the pertinent Bureaus
                          and they have taken action to deactivate those accounts identified in
                          our sample. However, the Department and the Bureaus need to
                          establish a process to ensure that employees’ accounts are
                          deactivated when their employment is ended.



                                              OTHER MATTERS
                          During the review we identified other issues that we brought to
                          management’s attention.

                          We identified several instances where the charge cards were used to
Procedures Not            buy equipment or property, but the property officer was not notified
Adequate to Ensure        and the equipment or property was not recorded on the property
Accountable Property      records. This occurred because the new purchasing function was not
is Properly Recorded      tied in directly to the financial management function. This problem is
                          made more difficult to manage because of the large number of
                          Department employees who have purchase card authority.
                          Management must evaluate and strengthen the procedures to notify
                          accountable property officers when such equipment or property is
                          purchased. We briefed agency officials and they indicated that they
                          would take action to address the problem.




                                                          10
                        We identified numerous purchases in two states, Colorado and South
 Payment of Taxes       Dakota, where the government paid sales taxes on purchases that
                        should have been tax exempt. Although the individual cards are
                        annotated with the federal government’s tax-exempt number, the
                        cardholders were either not aware of the government’s tax-exempt
                        status or did not ask the merchants for exemption from state sales tax.
                        Because the state tax codes vary, the Bureaus need to identify for their
                        employees the states where the tax-exempt status should be requested.


                        We identified instances where contracting officers were making
 Contracting Officers   payments to contractors using convenience checks. This process
 Making Contract        violated the segregation of duties regarding the certifying and
 Payments by            disbursing functions. When we notified them, agency officials took
 Convenience Check      immediate action to have that practice discontinued.


                        We identified employees who were using their charge cards to obtain
 Cash Advances from     cash, through the use of wire transfers, from gambling casinos
 Gambling Operations    sometimes in the thousands of dollars. These transactions were
                        centrally billed and were not detected by the reviewing officials. The
                        Department and the Bank took immediate action to prevent those types
                        of transactions from occurring.


                        We identified several uses of the charge cards that appeared to be
Questionable Charges    questionable in nature. That is, while they were not considered abuse,
                        they were questionable as to necessity and included:

                           Ø   Honorariums
                           Ø   Gift Certificates
                           Ø   Reimbursements to employees
                           Ø   Christmas decorations
                           Ø   Meals at awards ceremonies

                        We briefed Department and Bureau officials on these issues and the
                        officials agreed to take appropriate action to reinforce cardholder
                        responsibility regarding appropriate use.




                                                         11
RECOMMENDATIONS

We recommend that the Director, Office of Acquisition and Property Management:

1.   Require that the Bureaus annually evaluate and adjust the number of cardholders with
     purchase authority to the minimum number needed for efficient operations.

2.   Require that the Bureaus annually evaluate and adjust credit limits for charge cardholders.

3.   Establish guidance to identify appropriate reviewing officials. Reviewing officials should
     be in a position to determine if transactions are a reasonable and necessary program
     expense. Reviewing officials should also be sufficiently independent and of sufficient rank
     to question the cardholder when additional information is needed about specific
     transactions.

4.   Require that reviewing officials be formally designated.

5.   Establish specific procedures for record keeping, including a detailed description of what
     documents are to be maintained and how they are to be organized.

6.   Provide formal training to reviewing officials on the importance of conducting reviews and
     include specific instruction on how to reconcile statement activity

7.   Establish comprehensive policies and procedures for the review and reconciliation of
     cardholder transactions, recognizing that this is a paper intensive process.

8.   Require that reviewing officials be held accountable for performing adequate, timely
     reviews as part of their job performance and hold reviewing officials accountable for
     cardholder abuse when inadequate reviews were a contributing factor.

9.   Require that the Bureaus establish procedures to identify and deactivate charge card
     accounts for employees leaving the Department.

10. Continue cardholder training with emphasis on taxes, procedures to ensure that accountable
    property gets properly recorded, and record keeping requirements.

We also recommend that the Director, Bureau of Land Management:

11. Require that cardholders keep and maintain their own records or establish a policy that
    would hold reviewing officials accountable for incomplete records transferred to a central
    filing system.




                                              12
                 Based on the November 26, 2001 response (Appendix 3) from the
Department and   Department and the Bureau of Land Management, we consider
BLM Response     Recommendations 1, 2, 3, 4, 5, 6, 7, 8 and 10 resolved but not
and OIG Reply    implemented and Recommendation 9 resolved and implemented. We
                 need additional information on Recommendation 11.

                 Although the response did not indicate full concurrence with
                 Recommendations 1 and 2, we believe that the response provided
                 sufficient information or acceptable alternative actions for us to
                 consider the recommendations resolved.

                 The Department did not concur with Recommendation 8, in which we
                 recommended holding Reviewing Officials accountable for cardholder
                 abuse when inadequate reviews were a contributing factor. The Office
                 of Acquisition and Property Management, which prepared the
                 Department’s response, replied that disciplinary actions require the
                 involvement of personnel offices and union officials, who are
                 generally outside its control and cited this as a limiting factor to full
                 concurrence and implementation. However, the Department stated
                 that specific language would be incorporated into the proposed
                 Appointment as an Integrated Charge Card Approving Official
                 memorandum, which would state that approving officials could face
                 disciplinary action for inadequate reviews. Based on the proposed
                 language to be included in the “Appointment Memorandum” we
                 consider Recommendation 8 to be resolved but not implemented.

                 The Department questioned the need for Recommendation 9, as it
                 believes that adequate guidance was in place. However, the response
                 stated that procedures have been developed with the National Business
                 Center to identify personnel actions relating to cardholders. We
                 believe that the procedures developed satisfy the intent of the
                 recommendation and therefore, we consider Recommendation 9
                 resolved and implemented.

                 The Bureau of Land Management did not concur with
                 Recommendation 11 to require cardholders to keep and maintain their
                 own records. The BLM proposed alternative actions including a
                 manual revision that would incorporate the language necessary to
                 establish accountability. We accept that the BLM’s proposed actions
                 will resolve the issue, if implemented. Accordingly, we are asking that
                 the BLM identify a responsible official and target date for the revision,
                 which includes the language establishing accountability for record
                 keeping.




                                                  13
                                                                                 APPENDIX 1

   DETAILS REGARDING THE NUMBER OF CARDHOLDERS

Number of Cardholders as of June 30, 2001

As of June 30, 2001 the Department had about 55,000 accounts with travel authority and about
28,000 accounts with purchase authority. These numbers, however, cannot simply be added
together to equal the total number of cardholders for the Department because a single cardholder
with multiple business lines (travel and purchase) would be double-counted. In addition to cards
issued to individual cardholders, charge cards for the fleet line of business authority have been
issued to be available in government vehicles. Also, about 5,000 cards have been issued for
uniform purchases for BLM; these cards are not issued to individual employees.

The tables below show the significant increase in the numbers of purchase cardholders and travel
cardholders for the past three years.


                           Increase in the Number of Cardholders
                               March 1998 through June 2001


                                    PERCENT INCREASE IN
                                THE NUMBER OF CARDHOLDERS
                   Card               Cardholders * as of              % Increase
                   Type          03/24/98 07/07/00 06/30/01            From 1998
               Travel             41,000    48,000      55,000            34%
               Purchase           19,000    21,500      28,000            47%




                                   PERCENT OF CARDHOLDERS
                                    COMPARED TO DOI STAFF
                                                      % with            % with
                  Year          No. of FTE           Purchase           Travel
                  1998            66,501               29%               62%
                  2000            67,274               32%               71%
                  2001            68,000               41%               81%



* Approximate number of cardholders rounded to the nearest thousand.



                                                    14
                                                                                                         APPENDIX 2


                                 ANALYSIS OF CONTROLS,
                              DOI, BLM, AND BOR GUIDELINES
We reviewed the May 2000 DOI Guidelines for the charge card program, as well as the Revised Draft
Guidelines prepared in April 2001, to determine the adequacy of the control environment. We also
reviewed guidelines developed and published by the BLM and the BOR.

Recommended Control: The reviewing official needs to be responsible for reconciling invoices and receipts to
cardholder statements to ensure that purchases are reasonable and necessary government expenses.

                   May 2000 Guidelines                                                     Analysis
1. The guidelines define the Roles and Responsibilities of       1. The term “periodically review” is vague and should
the reviewing official by stating that a reviewing official is   specify a monthly review. The statement also requires only
expected to periodically review cardholder transactions on-      an on-line review using EAGLS and does not state that the
line using EAGLS to ensure that charge cards are being           reviewing official is responsible for reconciling cardholder
used only for their intended official purposes.                  statements to the invoices and receipts to determine if
                                                                 charges are reasonable and necessary.

2. The guidelines require Bureaus/Offices to develop             2. The credit card program would be better served if the
Bureau-specific operational procedures to implement              Department guidelines stated that a monthly review is to be
management controls for card use, including scheduled            performed for all cardholders and the reviewing official is
reviews of the transaction records, frequency of reviews,        responsible for reconciling receipts and invoices to the
and review methodology.                                          cardholder statement to ensure that charges are reasonable
                                                                 and necessary.

3. The guidelines state that, “In case of questions regarding    3. The guidelines do not identify what kinds of questions
particular transactions, EAGLS information should be             need to be answered (such as, what was purchased, how
supplemented by a review of transaction receipts.”               many were purchased, and was sales tax paid on the
                                                                 purchase). In addition, the guidelines imply that a review
                                                                 of transaction receipts would only be required for the
                                                                 minority of transactions, when in fact EAGLS does not
                                                                 provide enough information for an adequate review on
                                                                 90 percent of the transactions.
4. No guidance that the reviewing official needs to sign the     4. The guidelines should require that the reviewing official
statement upon completion of review to attest that charges       sign the statement upon completion of review to attest that
listed on the statement of account are reasonable and            charges listed on the statement of account are reasonable
necessary government expenses.                                   and necessary government expenses.

               Draft April 2001 Guidelines                                                 Analysis
1. The guidelines define the Roles and Responsibilities of       1. The Roles and Responsibilities of the reviewing officials
the reviewing official as “responsible for oversight and         do not specify that cardholder reviews should be performed
monitoring of designated cardholders’ compliance with            on a monthly basis. In addition, the guidelines do not
applicable laws, regulations, and procedures.” In addition,      clearly state that the purpose of the review is to determine
the guidelines refer to a checklist of minimum items to          that charges are reasonable and necessary government
review which includes matching the receipt amount to the         expenses. Finally, the guidelines should specify that the
amount on the statement of account; documenting charges          reviewing official’s signature on the statement of account is
on the statement of account, such as original charge slip,       attestation that charges are reasonable and necessary
original register receipt, original packing list, or shipping    government expenses.
document; signatures of cardholder and reviewing officials
are on the statement of account.



                                                            15
                                                                                                           APPENDIX 2

                       BLM Guidelines                                                     Analysis
1. BLM guidelines list the responsibilities of the reviewing     1. The guidelines recognize that the reviewing official
official as: review reconciled statements and receipts,          needs to review receipts in conjunction with the
ensure that centrally billed items are not included on a         cardholders’ statements. The guidelines are vague because
travel voucher, assure that cardholders reconcile their          the statements “review reconciled statements” and
accounts within five business days of receiving their            “validate cardholder statements” do not explain what
statements, validate cardholder statements within five           actions the reviewing official is expected to take.
business days of receiving them from the cardholders, take
appropriate action if a cardholder misuses the card, and
review exception reports.

2. BLM guidelines state, “your supervisor must sign off on       2. The guidelines clearly state that the reviewing official
your Bank statement indicating that they have reviewed           needs to sign the statement to attest that charges listed on
your statement and approved all transactions.”                   the statement of account are reasonable and necessary
                                                                 government expenses. The statement, however, is not
                                                                 given to the reviewing officials, but is included in the
                                                                 instructions to the cardholder.

                       BOR Guidelines                                                      Analysis
1. “Approving Officials are expected to review cardholder        1. The guidelines do a good job of specifying that the
transactions monthly on-line using the EAGLS system, and         review needs to be done on a monthly basis and that the
through a series of standard and ad hoc exception reports,       reviewing official needs to ensure that the charges are for
to ensure that charge cards are being used only for their        “official purposes.” The guidelines rely solely on a review
intended, official purposes.”                                    being done using the EAGLS system. Since EAGLS does
                                                                 not provide transaction detail required to do an adequate
                                                                 review, the guidelines need to specify that in addition to
                                                                 using EAGLS, a reconciliation of the receipts to the
                                                                 cardholder statement is required to ensure that purchases
                                                                 are reasonable and necessary government expenses.

2. There is no guidance that the reviewing official needs to     2. The guidelines should state that the reviewing official
sign the statement upon completion of the review to attest       needs to sign the statement upon completion of the review
that charges listed on the statement of account are              to attest that charges listed on the statement of account are
reasonable and necessary government expenses.                    reasonable and necessary government expenses.

Recommende d Control: The reviewing official needs to be in a position to determine reasonable and necessary expenses
of the cardholder.

                   May 2000 Guidelines                                                     Analysis
There is no mention that reviewing officials need any            The guidelines should state that the reviewing official needs
program or organizational relationship to the cardholder.        to have the functional knowledge to determine what
                                                                 purchases are reasonable and necessary for a cardholder to
                                                                 advance his/her program objectives. Most commonly, this
                                                                 would be the cardholder’s supervisor; however, a person
                                                                 with similar knowledge of the cardholder’s assigned duties
                                                                 and program objectives would also be able to adequately
                                                                 determine if the purchases are reasonable and necessary.




                                                            16
                                                                                                            APPENDIX 2


                Draft April 2001 Guidelines                                                 Analysis
There is no mention that reviewing officials need any             The guidelines should state that the reviewing official needs
programmatic or organizational relationship to the                to have the functional knowledge to determine what
cardholder.                                                       purchases are reasonable and necessary for a cardholder to
                                                                  advance his/her program objectives. Most commonly, this
                                                                  would be the cardholder’s supervisor; however, a person
                                                                  with similar knowledge of the cardholder’s assigned duties
                                                                  and program objectives would also be able to adequately
                                                                  determine if the purchases are reasonable and necessary.

                      BLM Guidelines                                                         Analysis
The guidelines state, “the reviewing official, typically a        The guidelines do a good job of stating that the supervisor
supervisor or their designee, . . . .”                            should be the reviewing official in most cases, but also
                                                                  leaves room for another designee, and does not define the
                                                                  criteria of the designee. Specifically, the reviewing official
                                                                  needs to be in a position to determine if purchases are
                                                                  reasonable and necessary to advance the cardholder’s
                                                                  program objectives.
                     BOR Guidelines                                                         Analysis
There is no mention that reviewing officials need any             The guidelines should specify that the reviewing official
program or organizational relationship to the cardholder.         needs to have the functional knowledge to determine what
                                                                  purchases are reasonable and necessary for a cardholder to
                                                                  advance his or her program objectives. Most commonly,
                                                                  this would be the cardholder’s supervisor; however, a
                                                                  person with similar knowledge of the cardholder’s assigned
                                                                  duties and program objectives would also be able to
                                                                  adequately determine if the purchases are reasonable and
                                                                  necessary.
Recommended Control: The reviewing official needs to be accountable for undetected abuse when inadequate reviews
were a contributing factor.

                   May 2000 Guidelines                                                      Analysis

There is no mention in the guidelines that reviewing              The guidelines should state that reviewing officials need to
officials need to be held accountable for undetected abuse        be accountable for undetected abuse when inadequate
when inadequate reviews were a contributing factor.               reviews were a contributing factor. The guidance must
                                                                  have some leverage to ensure that reviews are performed
                                                                  adequately (i.e., the reviewing official reconciles the
                                                                  invoices and receipts to the cardholder’s statement of
                                                                  account to determine that charges are reasonable and
                                                                  necessary).
               Draft April 2001 Guidelines                                                  Analysis

The guidelines state that Bureau policy must address              The guidelines adequately satisfy the recommendation.
“discipline of cardholders who abuse/misuse the card and          However, the guidelines should specify the type of review
A/OPC or reviewing officials who fail to recognize card           that reviewing officials will be held accountable for (i.e.
abuse/misuse when it should have been obvious to them.”           reconciling the statement and invoices to determine that
                                                                  charges are reasonable and necessary).




                                                             17
                                                                                                         APPENDIX 2


                     BLM Guidelines                                                       Analysis
There is no mention in the guidelines that reviewing            The guidelines should state that reviewing officials need to
officials need to be held accountable for undetected abuse      be accountable for undetected abuse when inadequate
when inadequate reviews were a contributing factor.             reviews were a contributing factor so the guidance has
                                                                some leverage to ensure that reviews are performed
                                                                adequately (i.e., the reviewing official reconciles the
                                                                invoices and receipts to the cardholder’s statement of
                                                                account to determine that charges are reasonable and
                                                                necessary).
                     BOR Guidelines                                                       Analysis
The “Approving Officials assume partial responsibility for      The guidelines do a good job of emphasizing the
cardholder’s actions under their supervision. Failure to        importance of the role of the reviewing official in the credit
control misuse by cardholder(s) under their supervision or      card program and give consequences for inadequate
to maintain required over sight may result in actions against   reviews.
the approving official” (page 9). In addition, the guidelines
set out penalties for reviewing officials who perform
inadequate reviews (page 10).

Recommended Control: Establish policy for record maintenance and accountability so that reviewing officials may
reconcile receipts and invoices to cardholder statements.

                   May 2000 Guidelines                                                    Analysis
The guidelines state that “cardholders must retain all          The guidelines sufficiently address the issue of the
original receipts and documentation directly supporting         cardholder maintaining receipts and invoices. The
their charge card transactions made through the purchase        statement also establishes cardholder accountability for
business line for a period of three years after final           record maintenance.
payment.” In addition, “all receipts must be made available
for audit or review within 48 hours after a request has been
received” (page 26).
               Draft April 2001 Guidelines                                                Analysis
The guidelines state that “cardholders must retain all          The guidelines sufficiently address the issue of the
original receipts and supporting documentation for a period     cardholder maintaining receipts and invoices. The
of three years after final payment.” In addition, “all          statement also establishes cardholder accountability for
receipts must be made available for audit or review within      record maintenance.
48 hours after a request has been received.”
                      BLM Guidelines                                                      Analysis
The guidelines state, “you must file and retain all receipts    The guidelines sufficiently address the issue of the
and any supporting documentation in accordance with your        cardholder maintaining receipts and invoices. The
local charge card implementation plan, regardless of the        statement, however, establishes accountability of record
dollar value of your transactions. BLM offices must             maintenance on the cardholder.
maintain these records for 3 years” (page 22).

                      BOR Guidelines                                                      Analysis
The guidelines list the documentation that must be kept for     The guidelines sufficiently address the issue of the
a minimum of 3 years following final payment and must be        cardholder maintaining receipts and invoices. The
made available for audit or review within 48 hours after a      statement also establishes accountability of record
request has been received. The list includes purchase log,      maintenance on the cardholder.
monthly statement, receipts, and supplemental
documentation (page 22).




                                                          18
RESPONSE TO DRAFT REPORT    APPENDIX 3




                       19
RESPONSE TO DRAFT REPORT                                                      APPENDIX 3



We will continue to improve the Integrated Charge Card Program, and appreciate the
recommendations provided in the draft report. We are pleased to report that actions on a number
of areas also cited in the draft report are in progress. We look forward to working with you to
ensure that all concerns are appropriately addressed.

Please contact me on 208-6352 or Patricia Corrigan of my staff on 208-1906 if you have any
questions regarding our response to the draft report.

Attachment


cc:Robert Lamb
Sky Lesher




                                             20
RESPONSE TO DRAFT REPORT                                                  APPENDIX 3



 Office of Acquisition and Property Management and Bureau of Land Management
                  Responses to Recommendations Contained in the
           Draft Advisory Report on the Integrated Charge Card Program
                      (Assignment No. C-IN-MOA-016-00-DC)

Recommendation 1: Require that the bureaus annually evaluate and adjust the
number of cardholders with purchase authority to the minimum number needed for
efficient operations.

Response: Qualified Concurrence. We will review this issue with the bureaus and direct
them to assess the number of cardholders who need to have the purchase business line
available for official purchases under the integrated SmartPay Program charge card, taking
into consideration needs associated with field season, fire management, law enforcement
and investigations, resource management, purchases associated with TDY travel and other
operational support purchasing needs, and make adjustments as appropriate. While we
agree that this should be done cyclically, we do not agree that the cycle should be an
annual one. The results of this year's assessment will enable us to determine the optimum
cycle for bureau evaluation and, as appropriate, adjustment of the number of cardholders
with purchase authority.

We note the report's table showing what appears to be a large increase in employees with
purchasing authority since the beginning of the SmartPay Program. Although some
bureaus, such as BLM and USGS, had mature purchase card programs prior to 1998, other
bureaus, such as the Bureau of Indian Affairs and National Park Service, did not. Much of
the program's growth has occurred with the broader implementation of micro-purchase
authority in these two bureaus. In addition, more than 1,000 individuals with contracting
officer's warrants now have authority to use a purchase card as a payment tool for
procurements over the micro-purchase threshold.

The number of open accounts varies slightly on a daily basis, depending on employee
hiring, departures and changes in duties of on-board personnel. During the summer,
employment at Interior peaks. Permanent seasonal employees, such as National Park
Service rangers and certain fire fighters, are authorized to have charge cards open for use
during their seasonal employment period.

As of August 1, 2001, 56,664 Interior employees had charge cards. Of those,

   •   1,771 had purchase authority
   •   27,060 had combined purchase and travel authority
   •   27,833 had travel authority

Employment at Interior as of July 28, 2001 was 79,192 individuals, or 36% with purchase
authority.




                                           21
RESPONSE TO DRAFT REPORT                                                    APPENDIX 3



It is important to clarify that under the prior multi-card environment (i.e., different cards
for travel, purchases, and fleet fueling), incidental purchases and purchases of fuel for
rental cards associated with TDY travel could be made by the cardholder with his/her
travel card. In the SmartPay Program's integrated card environment, non-lodging or non-
food merchants are blocked to cardholders who only have the travel business line open
under their accounts. We also open the fleet business line to cardholders with travel
authority so that they can make necessary fuel purchases for rental vehicles.

Action: Cardholder purchasing authority needs evaluation/assessment by bureaus will be
included as a targeted review requirement under the Department's 2002 management
control review/reporting cycle for the acquisition function. Instructions to be issued in
December 2001. Bureau/office reports due to the Office of Acquisition and Property
Management by Thursday, August 15, 2002.

Responsible Official: Debra E. Sonderman, Director, Office of Acquisition and Property
Management

Recommendation 2: Require that the bureaus annually evaluate and adjust credit
limits for charge cardholders.

Response 2: Qualified Concurrence. We will direct the bureaus to review the credit
limits established for the various option sets they use to categorize their cardholders based
on their potential needs. A cardholder's potential need is not necessarily reflected in their
actual usage of a card in the past quarter, year, or even since program implementation. The
results of this year's assessment will enable us to determine the optimum cycle for bureau
evaluation and, as appropriate, adjustment of credit limits.

Some background information is appropriate to clarify the issue of credit limits. We
understand that the monthly credit limits were built into the transaction processing systems
that manage all charge card programs for private sector consumer and corporate card
programs in order to manage the vulnerability of the issuing banks to fraudulent use of
lost/stolen cards, not misuse by the cardholder. While not specifically applicable to the
Government's charge card program, the limits were incorporated into the General Services
Administration's SmartPay Program because they exist in commercial transaction
processing systems. Bank of America, based on its experience with large corporate charge
card programs, recommended the monthly credit limits initially established on the
Department of the Interior's accounts. Since the SmartPay Program's implementation, the
bureaus have made adjustments to accommodate high use cardholders and for other
reasons by creating new Option Sets, as needed. Bureaus have worked with Bank of
America to establish the new Option Sets, and to date, the bank has not expressed concern
about the monthly credit limit thresholds.

Action: Credit limit evaluation by bureaus will be included as a targeted review
requirement under the Department's 2002 management control review/reporting cycle for
the acquisition function. Instructions to be issued in December 2001. Bureau/office


                                            22
RESPONSE TO DRAFT REPORT                                                 APPENDIX 3


reports due to the Office of Acquisition and Property Management by Thursday, August
15, 2002.

Responsible Official: Debra E. Sonderman, Director, Office of Acquisition and Property
Management

Recommendation 3: Establish guidance to identify appropriate reviewing officials.
Reviewing officials should be in a position to determine if transactions are a
reasonable and necessary program expense. Reviewing officials should also be
sufficiently independent and of sufficient rank to question the cardholder when
additional information is needed about specific transactions.

Response 3: Concur. The Treasury Financial Manual, which sets basic guidance for
financial management issues including travel, describes requirements for Approving
Officials. Although we have used Reviewing Officials and Approving Officials
interchangeably in the past, we have modified our guidance to use the term Approving
Official. We are addressing our Approving Official (AO) needs in this area through a
three-pronged approach:

(1) Planned issuance of a formal Integrated Charge Card Approving Official appointment
memorandum outlining duties and responsibilities to every supervisor Departmentwide
(and to new supervisors thereafter). The responsibility for signing monthly cardholder
statements may not be re-delegated. The memorandum establishes a training requirement
for all Interior AO's (to be completed within 45 days of receipt of the memorandum);
outlines AO duties and responsibilities; identifies points of contact for suspected charge
card misuse; warns that revocation of AO authority will follow any audit or other findings
of non-performance of AO duties; and references additional Integrated Charge Card
Program guidance accessible on-line.

(2) Mandatory AO On-Line Training Program. An AO Training Program Subcommittee
to the Interior Integrated Charge Card Team was established at the May 2001
Departmentwide Integrated Charge Card Program Conference to develop and test a
Departmentwide on-line AO training program. The training module, a goal of the
Integrated Charge Card Team for well over a year prior to the May 2001 conference, is
being developed. Projected completion is January 2002, with pilot testing and phase-in to
immediately follow. The on-line program will include thorough coverage of AO duties
and responsibilities; checklists to assist supervisors and other officials in reviewing
cardholder transactions; and guidance on properly understanding necessary expense
questions and handling misuse issues.

(3) Additional coverage regarding AO duties and responsibilities, checklists, and
references in the upcoming revision to the Department of the Interior Integrated Charge
Card Guidelines, now in the final review process.

Action: Items (1), (2) and (3): Planned release/issuance: January 2002 (January release
of Items (1) and (3) is dependent on consultation with labor/union representatives.)


                                          23
RESPONSE TO DRAFT REPORT                                                 APPENDIX 3



Responsible Official: Debra E. Sonderman, Director, Office of Acquisition and
Property Management

Recommendation 4: Require that Reviewing Officials be formally designated.

Response 4: Concur. See Item (1) to Recommendation 3, above.

Recommendation 5: Establish specific procedures for record keeping, including a
detailed description of what documents are to be maintained and how they are to be
organized.

Response 5: Concur. Expanded coverage including separate procedures for reconciling
Statements of Account (e.g., supporting documentation requirements) and documentation
and record retention requirements for transactions in each of the Integrated Charge Card
Program's business lines has been drafted for incorporation in the upcoming revision to the
Department of the Interior Integrated Charge Card Guidelines. This was done to
accommodate the varying record retention requirements of the Federal Acquisition
Regulation (purchase business line), the Federal Management Regulations (travel and
fleet), and Departmental policies. In addition, an AO transaction review checklist for
purchase business line (including convenience checks) and fleet transactions has also been
included in the guidelines.

Action: Planned release/issuance: January 2002 (dependent on consultation with
labor/union representatives)

Responsible Official: Debra E. Sonderman, Director, Office of Acquisition and Property
Management

Recommendation 6: Provide formal training to Reviewing Officials on the
importance of conducting reviews and include specific instruction on how to reconcile
statement activity.

Response 6: Concur. The on-line AO training program, currently under development,
will emphasize the importance of the review process and assist AO's by providing them
with checklists and step-by-step instructions on how to reconcile statement activity.

Action: Planned release/issuance: January 2002 (pilot testing to be followed by phase-
in)

Responsible Official: Debra E. Sonderman, Director, Office of Acquisition and Property
Management

Recommendation 7: Establish comprehensive policies and procedures for the review
and reconciliation of cardholder transactions, recognizing that this is a paper
intensive process.


                                          24
RESPONSE TO DRAFT REPORT                                               APPENDIX 3



Response 7: Concur. See response to Recommendation 5, above.

Action: Planned release/issuance: January 2002 (dependent on consultation with
labor/union representatives)

Responsible Official: Debra E. Sonderman, Director, Office of Acquisition and
Property Management

Recommendation 8: Require that Reviewing Officials be held accountable for
performing adequate, timely reviews as part of their job performance and hold
reviewing officials accountable for cardholder abuse when inadequate reviews were
a contributing factor.

Response 8: Do Not Concur. The following language has been included in the
proposed Appointment as Integrated Charge Card Approving Official memorandum: "If
an audit of the card program or other information reveals that you are not performing
your responsibilities, your approving authority will be revoked. This will result in
another Approving Official being assigned to review your cardholders' transactions and
may result in disciplinary action." In addition, the proposed Integrated Charge Card
Guideline revision requires bureaus to include policy related to the discipline of
"approving officials who fail to recognize card abuse/misuse when it should be obvious
to them." However, final language to this effect will be contingent on Office of
Personnel Policy and union representation review and concurrence. The Bureau of
Reclamation policy cited and assessed in Appendix 2 to the report (page 16) required
local union review prior to issuance.

The current U.S. Department of the Interior Handbook on Charges and Penalty Selection
for Disciplinary and Adverse Actions (accessible at: http://www.doi.gov/hrm/ under
"Office of Personnel Policy") makes no provision for holding employees (supervisors or
other) accountable for cardholder abuse when inadequate reviews were a contributing
factor. Penalties are identified for charge card abuse by cardholders - not their AOs.
The Office of Acquisition and Property Management will work with the Office of
Personnel Policy to identify options on tying AO duties and responsibilities to job
performance criteria and possible disciplinary action for non-performance of AO duties.
However, since this recommendation falls under the purview of the Office of Personnel
Policy, we cannot commit to an action plan or targeted resolution date.

Recommendation 9: Require that bureaus establish procedures to identify and
deactivate charge card accounts for employees leaving the Department.

Response 9: Recommendation is Questioned. Section 2.13 (page 32) of the May 2000
U.S. Department of the Interior Integrated Charge Card Guidelines provides considerable
coverage to this effect, as follows:




                                         25
RESPONSE TO DRAFT REPORT                                                 APPENDIX 3


What steps must bureaus/offices take when an employee leaves the Department of the
Interior or moves from one DOI bureau to another?

       Bureaus must develop specific employee clearance procedures implementing the
       following requirements to ensure that the Bank of America MasterCard and
       convenience checks are destroyed, and that outstanding balances are paid in full
       when an employee is separated from the Department or moves from one DOI
       bureau to another.

       A. Bureaus/offices must immediately cancel all contractor-issued charge card
       accounts when an employee cardholder leaves the DOI or moves from one bureau
       to another.

       B. Charge card plastic(s) and convenience checks must be destroyed.

       C. In addition, bureau/office employees with exit clearance oversight
       responsibilities must: (1) Verify the account status in EAGLS and determine
       whether any amounts are due; (2) attempt to obtain a check from the employee
       payable to Bank of America, for the full amount of undisputed individually billed
       charges that are outstanding; (3) inform the exiting employee that if he/she has an
       outstanding balance, the charge card contractor will be notified of their departure
       and provided with the employee=s forwarding address. In addition, the exiting
       employee must be informed that if he/she has been appropriately reimbursed for
       individually billed travel related expenses but is separating from the Department
       of the Interior with a delinquent balance, his/her account information will be
       referred to the Office of Inspector General (OIG); and (4) either immediately
       notify the Bank of America of the change in status (including forwarding address)
       if they have authority in EAGLS to do so, or provide the information to the
       cardholder=s respective A/OPC for prompt coordination with the Bank of
       America. In cases where an employee is separating from DOI with a delinquent
       balance (as covered above), the bureau exit clearance official will refer cardholder
       information by telephone or in writing to the OIG.

Comparable coverage has been included in the upcoming guideline revision. A copy of
the U.S. Geological Survey's Employee Clearance Procedures is also included in the
upcoming revision for consideration and possible use by other Interior bureaus/offices.
Most bureaus have an employee clearance procedure in place. However, employees
frequently leave without bothering to follow that procedure.

To address this issue, the Office of Acquisition and Property Management and National
Business Center have collaborated in the development of a report that matches cardholder
data with employee status information contained in the FPPS. This will allow for quicker
identification of cardholders for whom a personnel action has been issued for separation
or re-assignment. The first production run of the report has been completed, and several
hundred accounts closed. We also identified several hundred cases where the employee's
social security number in EAGLS was incorrect, giving the appearance that the


                                          26
RESPONSE TO DRAFT REPORT                                                  APPENDIX 3



cardholder account was not valid. This report will be run quarterly by NBC and
distributed to the bureaus for action.

Recommendation 10: Continue cardholder training with emphasis on taxes,
procedures to ensure that accountable property gets properly recorded, and record
keeping requirements.

Response 10: Concur. The upcoming revision to the Integrated Charge Card Program
Guideline includes expanded coverage in each of the above areas including checklist
references to the requirement to enter applicable property data into bureau/office property
management systems; a Department of the Interior charge card program tax-exemption
information website (http://www.doi.gov/pam/exempt.html); and more detailed
information on documentation and record keeping requirements. Upon issuance of the
guideline, we will require bureaus to ensure that their training programs reflect the
revised guidelines' emphasis in the above areas. Standardized on-line cardholder training
is now being developed, with expected release in 2002.

Action: Planned release/issuance: January 2002 (dependent on consultation with
labor/union representatives)

Responsible Official: Debra E. Sonderman, Director, Office of Acquisition and
Property Management

Recommendation 11 [Bureau of Land Management]: Require that cardholders
keep and maintain their own records or establish a policy that would hold
Reviewing officials accountable for incomplete records transferred to a central filing
system.

Response 11 [Bureau of Land Management] Do Not Concur: The BLM believes that
lack of complete records is a common problem as verified by our own reviews of the
charge card program. However, we do not feel that requiring cardholders to maintain
their own records is the solution. We have found with our own reviews that charge card
records are more complete in offices that require records to be centrally filed.

The current BLM charge card manual only requires cardholders to file records "as
prescribed in your local charge card implementation plan." The manual rewrite, which is
in progress, requires the records to be "stored and properly secured in the cardholder's
office in accordance with the local operation plan." This can be accomplished by the
cardholder maintaining his/her records at their workstation or by the office maintaining
the records in a central file. Either way, the cardholder's and Reviewing Official's
signature on the statement is certification that the files are complete. If the cardholder
maintains control of the records, he/she is responsible for ensuring that the records are
secure and remain intact. Likewise, only complete records should be sent to central files
and the Records Manager is responsible for security of the records.



                                           27
RESPONSE TO DRAFT REPORT                                                    APPENDIX 3



If incomplete records are being approved, this is a performance issue that should be
addressed by the Reviewing Official's immediate supervisor. We cannot establish policy
that would hold Reviewing Officials accountable for incomplete records. We can, and
do, have a policy that establishes procedures for Reviewing Officials to follow. It is then
the Reviewing Official's immediate supervisor's responsibility to hold them accountable.


Analysis of Controls, DOI, BLM, and BOR Guidelines (Appendix 2)

IG Recommended Control (Page 14): The reviewing official needs to be responsible
for reconciling invoices and receipts to cardholder statements to ensure that purchases are
reasonable and necessary government expenses.

BLM Response to the Analysis (Page 15): The IG’s analysis was based on a review of
the interim BLM charge card manual dated 12/10/99. A BLM National Business Center
Information Bulletin No. BC-2001-075 was issued on 6/7/01 that addressed reviewing
official’s roles and responsibilities in more detail than what the coverage is in the interim
charge card manual. We are currently working on a rewrite of the BLM charge card
manual that will incorporate the information contained in the above referenced
information bulletin.

IG Recommended Control (Page 15): The reviewing official needs to be in a position
to determine reasonable and necessary expenses of the cardholder.

BLM Response to the Analysis (Page 16, top): As the IG analysis suggests, the current
BLM guidance does not address this. There is also very limited guidance in the DOI
Integrated Charge Card Program Guidelines related to the assignment of
reviewing/approving officials. It is recommended that additional language be added to
the DOI guidelines to ensure that consistent guidance exists across all DOI bureaus/offices.

IG Recommended Control (Page 16): The reviewing official needs to be accountable
for undetected abuse when inadequate reviews were a contributing factor.

BLM Response to the Analysis (Page 17, top): As stated above in the BLM response
to the IG recommended control above, BLM feels that the DOI guidelines should
establish department-wide guidance related to this item to aid in the consistency of
approach by all bureaus/offices. The new revised DOI guidelines only require that
bureaus include policy related to the discipline of “approving officials who fail to
recognize card abuse/misuse when it should have been obvious to them.”

BLM also questions the appropriateness of including this type of guidance in a program-
specific manual. The approving official’s failure to properly review employee charge
card transactions is a performance issue that must be dealt with. To my knowledge, no
other program manual/guideline includes coverage related to disciplinary actions for
individuals who fail to comply with the policy contained in the document. When an


                                            28
RESPONSE TO DRAFT REPORT                                                    APPENDIX 3


individual fails to properly perform any of their duties, it is that individual’s immediate
supervisor’s responsibility to work with HR staff to determine the appropriate course of
action.

IG Recommended Control (Page 17): Establish policy for record maintenance and
accountability so that reviewing officials may reconcile receipts and invoices to
cardholder statements.

BLM Response to the Analysis (Page 17, bottom): The IG’s analysis was based on a
review of the interim BLM charge card manual dated 12/10/99. That guidance only
required cardholders to file records “as prescribed in your local charge card
implementation plan.” The manual rewrite requires the records to be “stored and
properly secured in the cardholder’s office in accordance with the local operation plan.”
This can be accomplished by the cardholder maintaining their records at their workstation
or by the office maintaining the records in a central files. Either way, the cardholder’s
and reviewing official’s signature on the statement is certification that the files are
complete. If the cardholder maintains control of the records, they are responsible for
ensuring that the records are secure and remain intact. Likewise, only complete records
should be sent to central files and the records ma nager is responsible for security of the
records.




                                            29
                                                                                     APPENDIX 4




     STATUS OF AUDIT REPORT RECOMMENDATIONS

Recommendation
   /Reference                  Status                             Action Required

  1, 2, 3, 4, 5, 6,   Resolved; not                 No further response to the Office of Inspector
   7, 8, and 10       implemented.                  General is required. The recommendations will
                                                    be referred to the Assistant Secretary for Policy,
                                                    Management and Budget for tracking of
                                                    implementation.

         9            Resolved and                  No further action is required.
                      Implemented

        11            Management concurs            Provide the title of the official responsible for
                      additional information        drafting the manual revision on record keeping
                      requested.                    responsibility, and provide a target date for
                                                    implementation.




                                               30
Mission
The mission of the Office of Inspector General (OIG) is to
promote excellence in the programs, operations, and
management of the Department of the Interior (DOI). We
accomplish our mission in part by objectively and independently
assessing major issues and risks that directly impact, or could
impact, the DOI=s ability to carry out its programs and
operations and by timely advising the Secretary, bureau
officials, and the Congress of actions that should be taken to
correct any problems or deficiencies. In that respect, the value
of our services is linked to identifying and focusing on the most
important issues facing DOI.


How to Report Fraud, Waste, and Abuse
Fraud, waste, and abuse in Government are the concern of
everyone B Office of Inspector General staff, Departmental
employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related
to Departmental or insular area programs and operations. You
can report allegations to us by:

Mail:         U.S. Department of the Interior
              Office of Inspector General
              Mail Stop 5341-MIB
              1849 C Street, NW
              Washington, DC 20240

Phone:        24-Hour Toll Free             800-424-5081

              Washington Metro Area         202-208-5300
              Hearing Impaired              202-208-2420
              Fax                           202-208-6023

              Caribbean Region              703-487-8058
              Northern Pacific Region       671-647-6060

Internet:     www.oig.doi.gov/hotline_form.html
